Audit Report




OIG-10-033
SAFETY AND SOUNDNESS: Material Loss Review of Silverton
Bank, N.A.
January 22, 2010




Office of
Inspector General
Department of the Treasury
 
Contents

Audit Report...............................................................................................           1

    Results in Brief ..........................................................................................       2

    Causes of Silverton’s Failure .......................................................................            5
         Silverton’s Asset Growth Accelerated After Conversion ........................                              5
         Silverton’s Growth in CRE Concentrations Was High-Risk .....................                                6
         Ineffective Controls Over High CRE Concentration ................................                           8
         Economic Downturn .........................................................................                11
         Summary ........................................................................................           12

    OCC’s Supervision of Silverton. .................................................................. 12
         Summary of OCC’s Silverton Supervisory Actions ................................ 13
         OCC Approved Silverton’s Conversion to a National Bank Even Though Its
           Preconversion Examination Revealed Significant Weaknesses .............. 14
         Postconversion, There Was A Serious Lapse in OCC’s
           Supervisory Coverage ..................................................................... 18
         Transfer of Supervision to the Special Supervision Division Was Orderly and
           the Division’s Use of Enforcement Action and PCA Was Appropriate .... 20
         OCC Internal Lessons-Learned Review ................................................ 21

    Recommendations .....................................................................................           24

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                    28
    Appendix     2:      Background........................................................................         31
    Appendix     3:      Glossary ............................................................................      35
    Appendix     4:      Chronology of Significant Events ..........................................                41
    Appendix     5:      OCC Silverton Bank, N.A. Examinations and
                         Enforcement Actions ...........................................................            47
    Appendix     6:      Prior OIG Material Loss Review Recommendations ..................                          51
    Appendix     7:      Management Response .......................................................                54
    Appendix     8:      Major Contributors to This Report .........................................                57
    Appendix     9:      Report Distribution ..............................................................         58

Abbreviations

    ALLL                      allowance for loan and lease losses
    CRA                       Community Reinvestment Act
    CRE                       commercial real estate

                         Material Loss Review of Silverton Bank, N.A.                                             Page i
                         (OIG-10-033)
EIC               examiner-in-charge
FDIC              Federal Deposit Insurance Corporation
FRB Atlanta       Federal Reserve Bank of Atlanta
IT                information technology
MRA               matters requiring attention
OIG               Department of the Treasury Office of Inspector General
OCC               Office of the Comptroller of the Currency
PCA               prompt corrective action
ROE               report of examination
TARP              Troubled Asset Relief Program




              Material Loss Review of Silverton Bank, N.A.                 Page ii
              (OIG-10-033)
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                        January 22, 2010

                        John C. Dugan
                        Comptroller of the Currency

                        This report presents the results of our material loss review of the
                        failure of Silverton Bank, N.A. (Silverton), of Atlanta, Georgia, and of
                        the Office of the Comptroller of the Currency’s (OCC) supervision of
                        the institution. OCC closed Silverton and appointed the Federal
                        Deposit Insurance Corporation (FDIC) as receiver on May 1, 2009.
                        This review is mandated by section 38(k) of the Federal Deposit
                        Insurance Act because of the magnitude of Silverton’s estimated loss
                        to the Deposit Insurance Fund. 1 As of October 31, 2009, FDIC
                        estimated that the loss would be $608.3 million. FDIC also estimated
                        an additional loss of $649.6 million to its Transaction Account
                        Guarantee Program for a total loss of $1.26 billion from Silverton’s
                        failure.

                        Our objectives were to determine the causes of Silverton’s failure;
                        assess OCC’s supervision of Silverton, including implementation of the
                        prompt corrective action (PCA) provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed officials at OCC and FDIC. We also reviewed reports of
                        examination (ROE) and interviewed officials of the Federal Reserve
                        Board (FRB), Silverton’s primary regulator until August 2007. We
                        conducted our fieldwork from July 2009 through November 2009.
                        Appendix 1 contains a more detailed description of our review
                        objectives, scope, and methodology.

                        We also include several other appendices to this report. Appendix 2
                        contains background information on Silverton’s history and OCC’s
                        supervision processes. Appendix 3 provides a glossary of terms used

1
  Section 38(k) defines a loss as material if it exceeds the greater of $25 million or 2 percent of the
institution’s total assets.

                        Material Loss Review of Silverton Bank, N.A.                                 Page 1
                        (OIG-10-033)
               in this report. These terms are underlined in the body of the report
               and, in the electronic version of the report on our web site,
               hyperlinked to the glossary. Appendix 4 contains a chronology of
               significant events related to Silverton’s history and OCC’s supervision
               of the institution. Appendix 5 summarizes results of OCC
               examinations of Silverton from May 2007 through February 2009,
               including the enforcement action taken against Silverton. Appendix 6
               contains Treasury Office of Inspector General (OIG) recommendations
               from material loss reviews of failed OCC-regulated institutions
               completed since November 2008.


Results in Brief
               The primary cause of Silverton‘s failure was an excessive
               concentration in commercial real estate (CRE) loans. Deficient credit
               risk management processes, combined with the rapid decline in the
               economic environment, resulted in the deterioration of Silverton’s
               asset quality, including a substantial volume of problem loans and
               significant loan losses. These loan losses, along with the high cost of
               funding, significantly diminished earnings and capital, impairing
               Silverton’s ability to successfully implement and sustain its business
               strategy.

               Regarding supervision, OCC approved Silverton’s conversion to a
               nationally chartered bank in August 2007 despite significant
               weaknesses identified by OCC examiners during a preconversion
               examination and the declining housing market. We believe that OCC
               should not have approved Silverton’s conversion in August 2007,
               deferring approval until those weaknesses had been addressed.

               Subsequent to the bank’s conversion, we believe that OCC could not
               have done anything significantly different to prevent Silverton’s failure
               and the material loss to the Deposit Insurance Fund. That said, there
               was a serious lapse in OCC’s supervision of Silverton shortly after its
               conversion and swifter action may have possibly reduced the bank’s
               aggressive growth and amount of loss to the Deposit Insurance Fund.
               Specifically, an examiner-in-charge (EIC) was not assigned to Silverton
               for approximately 90 days after the conversion from a Georgia-
               chartered and Federal Reserve Bank of Atlanta (FRB Atlanta)-regulated
               bank to a nationally chartered OCC-regulated bank. Additionally, there
               was a gap of over 17 months between completion of the last full-

               Material Loss Review of Silverton Bank, N.A.                    Page 2
               (OIG-10-033)
                        scope examination of the bank jointly performed by FRB of Atlanta
                        and the State of Georgia and the start of the first full-scope
                        examination by OCC. According to OCC guidance, the full-scope
                        examination should have started within 12 months of the last FRB
                        examination. 2

                        While some examination coverage, in the form of the preconversion
                        examination and a targeted examination on asset quality, was
                        provided during the more than 17 month gap between full scope
                        examinations, the late start of the full scope examination was
                        troubling because the EIC for the preconversion examination had
                        recommended that a full-scope examination be started no later than 6
                        months after the conversion. Once started, the full-scope examination
                        found extensive weaknesses in the operations of the bank, including
                        failure by bank management to address the weaknesses noted by the
                        OCC preconversion examination.

                        During our material loss review, OCC completed an internal lessons
                        learned review. The reviewers concluded that the decision to approve
                        the conversion was flawed in that (1) identified weaknesses in credit
                        and credit risk management were not given sufficient weight;
                        (2) OCC’s perceived capabilities of the bank’s management and
                        management commitments to correct the problems and conclusions
                        reached by a December 2006 joint FRB Atlanta and State of Georgia
                        full-scope examination of the bank were granted too much weight;
                        and (3) the bank’s management was not compelled to demonstrate its
                        ability and commitment to make necessary improvements to existing
                        operations.

                        OCC’s internal lessons learned review report further states that ,
                        among other things, OCC needs to (1) exercise greater caution and be
                        more forceful and persistent regarding the necessity for better and/or
                        different risk management when institutions depart from their original
                        business strategy; (2) ensure objectivity in approving prospective
                        charters, particularly when the bank is to become the largest in a
                        respective field office and significant within a district; (3) validate
                        correction of deficiencies prior to making the final chartering decision;
                        and (4) consider a quality assurance review process over charter
                        conversions. In subsequent discussions, OCC officials stated that they


2
    Comptroller’s Handbook, Bank Supervision Process (September 2007)

                        Material Loss Review of Silverton Bank, N.A.                    Page 3
                        (OIG-10-033)
considered the performance of second level reviews of charter
conversions prior to approval as a better approach than an after-the-
fact quality assurance review. In this regard, OCC districts have been
instructed to have their respective District Supervisory Review
Committees perform second-level reviews of charter conversions. This
process, however, has not yet been formalized in OCC policy and
procedures.

As a final note, there were also certain transactions and events related
to this bank that are under further OCC review. We also referred these
matters to the Treasury Inspector General Office of Investigations.

Recommendations

We are recommending that OCC promptly assign an EIC and ensure
continuous supervisory coverage of converted institutions, to include
the timely initiation of the first full-scope examination after conversion.
Additionally, OCC should ensure that appropriate actions are taken to
amend or reinforce OCC guidance in response to the lessons learned
review of the Silverton failure. In particular, OCC should (1) determine
that banks seeking conversion to a national charter satisfactorily
address significant deficiencies identified by OCC or prior regulators
before approval and (2) formalize the process for second level reviews
of charter conversions.

Management Response

In its written response to this report, OCC acknowledged that stronger
controls are needed to ensure the clarity of its charter conversion
process and the implementation of examination requirements for
newly converted banks. OCC is in the process of planning and taking
steps to address our recommendations. Those steps being taken and
planned as outlined in OCC’s response are responsive to our
recommendations. The response, however, did not identify estimated
dates for completing planned actions, which OCC will need to develop
and record in the Joint Audit Management Enterprise System
(JAMES), the Department of the Treasury’s audit recommendation
tracking system. OCC’s response is discussed in more detail in the
Recommendations section of this report. The response is provided as
Appendix 6.



Material Loss Review of Silverton Bank, N.A.                      Page 4
(OIG-10-033)
Causes of Silverton’s Failure
              Silverton’s board and management grew, and then were unable to
              manage, high-risk concentrations in CRE loans. Deficient credit risk
              management processes, combined with the decline in the economic
              environment, resulted in the deterioration of Silverton’s asset quality,
              a substantial volume of problem loans, and significant loan losses.
              These loan losses, along with the high cost of funding, significantly
              diminished earnings and capital, impairing Silverton’s ability to sustain
              its business strategy.

              Silverton’s Asset Growth Accelerated After Conversion

              The bank’s total assets grew from $2.0 billion as of December 31,
              2006, to $3.2 billion as of December 31, 2008. As shown in the
              figure, although Silverton had been growing steadily over time, the
              rate of its growth increased rapidly after converting to a national bank
              charter in August 2007. Also adding to the increase in assets was an
              increase in loans, particularly CRE loans.

              The figure also reflects an increase in asset size to $4.2 billion as of
              March 31, 2009—a 32 percent increase in the first quarter of 2009.
              The increase in assets is attributable in part to an expansion of the
              bank’s liquidity--the added funds were principally in the form of cash,
              non-interest due from banks, and Federal Funds Sold.




              Material Loss Review of Silverton Bank, N.A.                     Page 5
              (OIG-10-033)
Figure 1. Silverton’s Total Asset Growth




                          $4.5
                          $4.0
                          $3.5
                          $3.0
               Billions



                          $2.5
                          $2.0
                          $1.5
                                         Conversion Date
                          $1.0
                          $0.5
                          $0.0



Source: Call reports for Silverton.


Silverton’s Growth in CRE Concentrations Was High-Risk

OCC provides guidance to examiners as to when institutions’ CRE loan
assets reach concentration levels representing concentration risk
requiring further analysis. Such institutions are those for which:

•    total reported loans for construction, land development, and other
     land represent 100 percent or more of the institution’s total capital;
     or
•    total CRE loans represent 300 percent or more of the institution’s
     total capital, and the outstanding balance of the institution’s CRE
     loan portfolio has increased by 50 percent or more during the prior
     36 months.

Silverton’s CRE loan assets as a percentage of capital significantly
exceeded these supervisory benchmarks before and after its
conversion to a national bank. The bank’s CRE loans grew from
$681 million as of December 31, 2006, to $1.2 billion, as of
December 31, 2008. The ratio of the CRE loan balance as a
percentage of capital went from 369 percent as of December 31,
2006, to 507 percent as of December 31, 2008. The ratio went as

Material Loss Review of Silverton Bank, N.A.                      Page 6
(OIG-10-033)
                        high as 1,279 percent as of March 31, 2009, as the bank’s capital
                        began to significantly erode due to loan losses and decreased
                        earnings.

                        Silverton funded its high level of loan growth with federal funds
                        purchased (the bank’s primary source of funding), client bank demand
                        deposits, and brokered deposits. 3 In 2007, Silverton primarily relied on
                        federal funds purchased and secondarily on brokered deposits for
                        funding its loan growth. In 2008, however, the bank’s federal funds
                        purchased decreased by $668 million, to $1.3 billion as of
                        December 31, 2008; and decreased even further, to $738 million as
                        of March 31, 2009, because fewer funds were available due to the
                        weak economy and negative earnings of certain of its client banks. In
                        2008, Silverton’s brokered deposits increased by $937 million, to
                        $1.0 billion as of December 31, 2008; and increased even further to
                        $1.4 billion as of March 31, 2009. The bank’s 2008 increase in
                        brokered deposits was inconsistent with the 2008 budget forecasts it
                        had provided to OCC, which stated that the bank’s total time deposits
                        (including brokered deposits) would not exceed $110 million. 4
                        According to OCC, these original budget projections were based on
                        anticipated normal operations, so deviation from them was not
                        surprising given the difficulties the bank developed and the actions
                        that were necessary to address them.

                        By December 31, 2008, the bank’s declining asset quality caused its
                        total risk-based capital ratio to fall below the 11 percent required by
                        its conversion approval, to 10.85 percent. By March 31, 2009, only 3
                        months later, the ratio had dropped to 4.74 percent. On April 3, 2009,
                        OCC notified Silverton’s board that Silverton was considered to be in
                        the critically undercapitalized category for PCA purposes. As a result,
                        the bank was no longer able to renew or obtain new brokered
                        deposits. 5 Further worsening Silverton’s capital situation was the fact
                        that its holding company, which had provided Silverton with capital
                        injections totaling approximately $41.5 million in 2008, stopped

3
  Federal funds purchased by Silverton were obtained from excess balances in its correspondent bank
customer accounts. For Silverton, this type of funding was a long-term, variable-rate form of funding similar
to core deposits at a traditional commercial bank.
4
  A time deposit is a deposit held by a financial institution for a fixed period (such as a certificate of deposit)
or any other deposit that a customer can withdraw only by giving advance notice. Brokered deposits consist
of time deposits.
5
  12 C.F.R. § 337.6 prohibits banks deemed critically undercapitalized from accepting, renewing, or rolling
over brokered deposits and restricts the effective yield banks can offer on deposits.

                        Material Loss Review of Silverton Bank, N.A.                                    Page 7
                        (OIG-10-033)
                     injecting capital into the bank in 2009. As noted in an examination of
                     Silverton’s holding company completed in April 2009 by FRB Atlanta,
                     the holding company was no longer a financial resource for the bank
                     because of a high level of debt and corresponding cash needs.
                     Without being able to rebuild its capital levels, much less support its
                     operations, Silverton by March 31, 2009, was in an extremely unsafe
                     and unsound condition and its viability was in imminent danger.

                     Ineffective Controls Over High CRE Concentration

                     When concentrations in CRE or other real estate exist, sound credit
                     risk management systems and maintenance of appropriate capital
                     levels are critical. An appropriate credit risk management system in
                     such circumstances would include strong underwriting standards and
                     policies and procedures to monitor and manage risks inherent in
                     increased concentrations in real estate. Although OCC guidance does
                     not provide quantifiable limits on banks’ CRE lending, it does describe
                     risk management practices an institution is expected to have in place
                     to pursue CRE lending in a safe and sound manner. 6 According to the
                     guidance, institutions should address the following key elements in
                     establishing a risk management framework that effectively identifies,
                     monitors, and controls CRE concentration risk:

                     •       board and management oversight
                     •       portfolio management
                     •       management information systems
                     •       market analysis
                     •       credit underwriting standards
                     •       portfolio stress testing and sensitivity analysis
                     •       credit risk review function

                     Silverton’s board and management failed to implement the risk
                     management processes necessary to control the bank’s growth and
                     concentration levels and to maintain adequate capital levels. In a May
                     2007 preconversion examination conducted after Silverton applied to
                     become a national bank, OCC found several weaknesses in this regard
                     that it identified as matters requiring attention (MRA) in a July 20,
                     2007, letter to the bank. The MRAs discussed the appropriate level of
                     oversight needed to develop credit risk management and strategic

6
 OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Dec. 6, 2006).

                     Material Loss Review of Silverton Bank, N.A.                          Page 8
                     (OIG-10-033)
                      planning processes, and the need to enhance these processes to
                      address the bank’s increasing risk profile. In addition, after Silverton
                      became a national bank (in August 2007), OCC discussed the need for
                      Silverton to address these weaknesses in; (1) an ROE dated
                      February 10, 2009, for a full-scope examination started in June 2008;
                      (2) a consent order dated February 26, 2009; and (3) a letter
                      downgrading Silverton’s CAMELS rating dated March 24, 2009.
                      However, the bank failed to resolve these weaknesses.

                      The following describes the weaknesses OCC examiners found in their
                      2008 full-scope examination relating to the key elements cited in OCC
                      guidance for establishing an effective risk management framework for
                      CRE lending.

                      Board and management oversight. OCC examiners concluded that
                      Silverton’s condition was deficient and that oversight by Silverton’s
                      board and management was inadequate for the bank’s high and
                      increasing risk profile, resulting in losses and depletion of capital. The
                      examiners criticized the bank’s board and management for credit risk
                      management practices that were unsafe and unsound, citing the
                      board’s failure to establish acceptable concentration limits and its
                      unlimited appetite for CRE loans in an effort to serve its client banks
                      by purchasing loan participations from them. OCC examiners further
                      noted that the board failed to meet its duty to promptly remove the
                      bank’s chief credit officer. 7 It was not until problem loans became
                      excessive that management took action and terminated the chief
                      credit officer in September 2008. The examiners also found that
                      various functions lacked sufficient staffing levels and expertise,
                      including credit administration, risk management, problem loan
                      management, and loan review, and that Silverton’s capital planning
                      and budgeting in 2008 were excessively optimistic.

                      Portfolio management. OCC examiners noted that the board failed to
                      diversify the bank’s loan portfolio or consider the risk associated with
                      excessive concentrations. The examiners also found that Silverton’s
                      board and management ignored the need for sound credit risk
                      management practices when purchasing loans from its client banks
                      and did not take action to implement processes for handling problem
                      loans when problem loans sharply increased in 2008.

7
  The February 2009 ROE stated that the chief credit officer “dominated the credit culture and managed
through intimidation, creating a corrosive credit environment.”

                      Material Loss Review of Silverton Bank, N.A.                              Page 9
                      (OIG-10-033)
                       Market analysis. OCC noted that the bank’s market analysis needed to
                       be improved and that its reports did not identify concentrations by line
                       of business or by geographic location. OCC examiners also found that
                       Silverton’s board and management did not adopt an appropriate
                       methodology for calculating the allowance for loan and lease losses
                       (ALLL). Generally, additional reserves should have been set aside to
                       compensate for potential losses for high-risk loans and high
                       concentrations in riskier loans. Rather than basing the allowance on
                       analysis of the current real estate market, Silverton’s board and
                       management based it on the bank’s historical losses. Because
                       Silverton had experienced low loan losses prior to the drastic decline
                       in the real estate market, its ALLL estimate was unreasonably low.

                       Management information systems. OCC examiners found that
                       Silverton’s systems and procedures to address problem loans were
                       weak and resulted in the bank’s slow reaction to the sharp increase in
                       problem loans. For example, high loan-to-value loans reported to the
                       board totaled 52 percent of capital as of June 30, 2008, but because
                       of inaccurate reporting the total amount of these riskier loans was
                       likely understated and very likely far exceeded 100 percent of capital. 8

                       Underwriting standards. OCC examiners concluded that the Silverton’s
                       asset quality was deficient and that its credit risk was high and
                       increasing. They identified numerous unsafe and unsound underwriting
                       and monitoring practices, such as:

                       •   inadequate underwriting on half of the loans OCC reviewed. Issues
                           included high loan-to-values, excessive terms or amortization, 9 no
                           required curtailments, no or inadequate appraisals, and the
                           inappropriate use of interest reserves;
                       •   delayed credit renewals because of the lack of appraisals and
                           financial information;
                       •   incomplete analyses of borrowers’ cash flows subsequent to the
                           funding of loans; and

8
  12 C.F.R. 34, Subpart D states the aggregate amount of all loans in excess of the supervisory loan-to-
value should not exceed 100 percent of total capital. Moreover, within the aggregate limit, total loans for all
commercial, agricultural, multifamily or other non-1-to-4 family residential properties should not exceed 30
percent of total capital.
9
  Excessive terms and amortization negatively impact the borrower and include such things as significantly
higher interest rates, minimum interest only payments, and negative amortization.

                       Material Loss Review of Silverton Bank, N.A.                                Page 10
                       (OIG-10-033)
•   excessive exception levels. Financial statement exceptions were
    identified in 30 percent of relationships, collateral exceptions in 40
    percent of relationships, and underwriting exceptions in 50 percent
    of relationships.

OCC examiners also noted unsafe and unsound underwriting and
credit administration practices had led to an increase in the number of
problem loans. From September 30, 2007, to March 31, 2008,
Silverton’s adversely classified loans increased from 18 percent to 55
percent of Tier 1 capital plus ALLL. Total classified assets increased
from $237 million (86 percent of Tier 1 capital plus ALLL) as of
June 30, 2008, to $295 million (118 percent of Tier 1 capital plus
ALLL) as of December 31, 2008. The increasing number of problem
loans resulted in significant losses and lower earnings and ultimately in
the failure of Silverton when it was unable to sustain its capital at
acceptable levels.

Portfolio stress testing and sensitivity analysis. OCC examiners found
that multi-variable stress testing was not performed on 19 of 29
loans.

Credit risk review function. OCC examiners found that Silverton’s
board and management failed to establish appropriate credit risk
management systems when their business strategy called for
aggressive growth and expansion. For example, OCC examiners noted
that concentration information lacked a formal analysis of the risks in
CRE concentrations or triggers for changes in underwriting or borrower
selection.

Economic Downturn

By 2007, there were clear indications that the economy as a whole
and the real estate market in particular were in decline. Before 2007,
the banking industry had experienced strong financial performance and
success. In its February 2009 ROE, OCC noted the bank was
imprudent in its decision to follow its existing growth and expansion
plans given the significant decline in the real estate market that was
occurring. The board and management either chose to ignore or failed
to acknowledge the indicators of a declining real estate market; and
when they could no longer ignore it, it was too late for any changes to
make a material difference.


Material Loss Review of Silverton Bank, N.A.                    Page 11
(OIG-10-033)
              Summary

              In summary, board and management failed to implement adequate
              controls and manage the dangers associated with the high-risk growth
              in CRE concentrations. When conditions worsened, the bank incurred
              substantial losses and was unable to sustain its capital at acceptable
              levels, at which time the bank became critically undercapitalized for
              PCA purposes and noncore funding sources (i.e., brokered deposits)
              became unavailable. Deeming the bank in unsafe and unsound
              condition, OCC closed Silverton on May 1, 2009, and appointed FDIC
              as receiver.

OCC’s Supervision of Silverton
              OCC approved Silverton’s conversion to a nationally chartered bank
              despite significant weaknesses identified by OCC examiners during a
              preconversion examination and the declining housing market. We
              believe that OCC should have deferred approval until those
              weaknesses were addressed.

              Subsequent to the bank’s conversion, we believe that OCC could not
              have done anything significantly different to prevent Silverton’s failure
              and the material loss to the Deposit Insurance Fund. That said, there
              was a serious lapse in OCC’s supervision of Silverton shortly after its
              conversion and swifter action may have possibly reduced the bank’s
              aggressive growth and amount of loss to the Deposit Insurance Fund.
              Specifically, an EIC was not assigned to Silverton for approximately
              90 days after the bank’s charter was converted from a state member
              bank charter (FRB Atlanta-regulated institution) to a national bank
              charter (OCC-regulated institution).

              In addition there was a gap of over 17 months between completion of
              the last full-scope examination of the bank by FRB Atlanta and the
              start of the first full-scope examination by OCC. According to OCC
              guidance, the full-scope examination should have started within 12
              months of the last FRB Atlanta examination.

              While examination coverage was provided to some extent during the
              17 month period through the preconversion examination and an April
              2008 targeted examination on asset quality, the late start of the full-

              Material Loss Review of Silverton Bank, N.A.                   Page 12
              (OIG-10-033)
            scope examination was troubling because the EIC for the
            preconversion examination had recommended that a full-scope
            examination be started no later than 6 months after the conversion.
            Once started, the full-scope examination found extensive weaknesses
            in the operations of the bank, including failure by bank management to
            address the weaknesses noted by the OCC preconversion examination
            and the April 2008 targeted examination.

            During our material loss review, OCC completed an internal lessons
            learned review. The review concluded that the decision to approve the
            conversion was flawed.

            Summary of OCC’s Silverton Supervisory Actions

            The following table summarizes OCC’s examinations of Silverton and
            related enforcement actions from 2007 to 2009. Appendix 5 provides
            further detail on the results of these examinations.

Table 2. Summary of OCC’s Silverton Examinations and Enforcement Actions

                                                           Examination Results
Date                                                         Number of
started/Type       Assets         CAMELS            Number   recommendations
of Exama           (billions)b    rating            of MRAs or suggestions                Enforcement actions
5/14/2007
Preconversion
examination              $2.1     2/222222              3                  0              None
4/24/2008
Targeted
examination              $2.7     2/232222              0                  0              None
6/2/2008                                                                                  Consent order
Full-scope                                                                                issued February 26,
examination              $3.1     4/444442              5                  0              2009
2/2/2009c
Targeted
examination              $3.1     5/555552              0                  0              None
Source: OCC ROEs and consent order.
a
  An examination cycle begins with the transmittal of the ROE. See appendix 2, Types of Examinations Conducted by
OCC, for additional information about OCC examinations.
b
  Asset amounts are as of December 31.
c
  The February 2, 2009, targeted examination was directed by OCC’s Special Supervision Division.




            Material Loss Review of Silverton Bank, N.A.                                             Page 13
            (OIG-10-033)
                         OCC Approved Silverton’s Conversion to a National Bank Even Though
                         Its Preconversion Examination Revealed Significant Weaknesses

                         Silverton was converted to a national bank on August 17, 2007. The
                         bank was under OCC’s supervision for less than 2 years before it
                         failed. Because of significant weaknesses identified by OCC examiners
                         during the preconversion examination and the declining housing
                         market in 2007, we believe that OCC should not have approved the
                         conversion in August 2007, deferring approval until the weaknesses
                         identified had been satisfactorily addressed and their resolutions had
                         been validated.

                         Significant Weaknesses Identified in Preconversion Examination

                         OCC guidance outlines the application process and decision criteria for
                         approval of the conversion of institutions to nationally chartered
                         banks. 10 In determining whether to approve an application for
                         conversion, OCC considers the applying institution’s

                         •   condition and management, including compliance with regulatory
                             capital requirements;
                         •   conformance with statutory criteria;
                         •   adequacy of policies, practices, and procedures that parallel OCC’s
                             minimum policies and procedures; and
                         •   Community Reinvestment Act (CRA) record of performance.

                         OCC may deny an institution’s conversion application because of

                         •   safety and soundness issues;
                         •   inadequate capital;
                         •   financial condition concerns;
                         •   significant CRA or compliance concerns;
                         •   ownership issues;
                         •   inconsistency with applicable laws, regulations, or OCC policy;
                         •   attempted circumvention of supervisory action by the applicant’s
                             current regulator; or
                         •   failure by the applicant to provide requested information that would
                             allow OCC to make an informed decision.

10
     Comptroller’s Licensing Manual, Conversions (April 2004).

                         Material Loss Review of Silverton Bank, N.A.                  Page 14
                         (OIG-10-033)
The guidance also states that if significant weaknesses exist in
financial and managerial factors, the conversion normally will be
denied.

Silverton was granted conditional approval on August 7, 2007, despite
significant weaknesses identified during OCC’s May 2007
preconversion examination. These weaknesses were detailed in a July
2007 OCC letter to the bank and are discussed below.

Credit risk management. Examiners viewed Silverton’s credit risk
profile as high because of its loan mix, credit concentrations, loan
types, growth, geographic distribution, and level of management
oversight. Examiners raised concerns because Silverton did not have
appropriate credit risk management processes in place to monitor and
control these risks. Specifically, they cited the inadequate
qualifications of the bank’s chief credit officer, lack of a senior-level
officer responsible for oversight of the lending function, and minimal
staffing of the bank’s risk management department. The examiners
also noted that Silverton had no executive- or board-level committee
to oversee lending and that credit reports presented to the board did
not provide adequate details.

OCC examiners told us that at the time of conversion, Silverton’s
board and management had a strong appetite for risk and that the
bank’s risk management systems were weak. In addition, examiners
said that, contrary to safe and sound practices, Silverton’s board and
management failed to establish concentration limits and had unlimited
appetites for CRE loans. The examiners also said they were concerned
at the time of conversion that Silverton was planning to continue its
aggressive growth strategy without proper risk management tools in
place. Silverton’s aggressive growth strategy, coupled with its lack of
appropriate risk management, should have alerted OCC to the risks of
approving the bank’s conversion to a nationally chartered institution.

Strategic planning. Noting the bank’s high rate of growth, OCC
directed Silverton to revisit its strategic plan to ensure that its growth
and expansion plans were appropriate for its increasing risk profile, to
address its lack of specific business plans, and to improve credit risk
management systems that were inadequate for the bank’s growth and
expansion plans.


Material Loss Review of Silverton Bank, N.A.                    Page 15
(OIG-10-033)
Capital planning. OCC directed Silverton to develop a more
comprehensive capital plan, including a thorough analysis of the
impact of its growth plans and qualitative risk factors on capital
adequacy.

OCC examiners told us that Silverton’s board and management had
begun to address these supervisory concerns through newly created
processes. These processes had not yet been implemented when the
conversion application was pending and therefore their effectiveness
was unknown. As discussed above, OCC nevertheless approved the
conversion, without validating that Silverton’s management had taken
action that addressed the weaknesses identified during the
preconversion examination. In this respect, the OCC placed too much
reliance on the bank’s historically positive financial performance, prior
examination results, and the representations and cooperation of
management and the board of directors (comprised entirely of bank
CEOs of owner-institutions).

Conversion Approval Process

To determine the rationale behind the approval of conversion for
Silverton given the deficiencies identified in the preconversion
examination, we interviewed OCC officials and staff with the relevant
OCC components involved in the approval process.

We were told that the authority to approve most conversion
applications is delegated by the OCC headquarters licensing division to
the district licensing division. However, when significant concerns are
identified in the conversion application process, district licensing staff
is required to discuss these issues with the headquarters licensing
division. In these situations headquarters staff may provide feedback,
but decision authority remains with the district. Further, in making its
decision on an application, district licensing staff consult with the
supervisory staff including the district deputy comptroller, field office
assistant deputy comptroller, and appropriate field staff. When there is
disagreement among the district licensing and/or supervision parties or
when significant issues exist, the conversion application is
automatically forwarded to the headquarters licensing division for
decision. For Silverton, OCC followed these procedures in that the
Southern District licensing division conferred with headquarters


Material Loss Review of Silverton Bank, N.A.                    Page 16
(OIG-10-033)
                       licensing staff, the Southern District deputy comptroller, the Atlanta
                       assistant deputy comptroller and various field staff before making its
                       decision on the conversion application. 11

                       While some parties we interviewed had reservations about the
                       conversion, none, in the end, objected to the approval of the
                       conversion. It was with this consensus that the Southern District
                       licensing division approved the conversion. OCC officials and staff
                       cited several factors for why they thought the conversion was
                       acceptable including that they felt the issues facing the bank were
                       manageable from a supervisory standpoint. The assistant deputy
                       comptroller stated that an area of comfort was that Silverton had a
                       great track record, was a 2-rated bank by FRB Atlanta with “1 rated”
                       asset quality and “strong” credit risk management. The official also
                       told us that he understood that while Silverton had some flaws, he did
                       not expect the type of collapse in the housing market and downturn in
                       the economy that eventually occurred.

                       Housing Market Decline

                       In mid-2007, the U.S. housing market had shown signs of weakening
                       as housing prices started to decline. This was an important
                       consideration in reviewing Silverton’s conversion. A portion of
                       Silverton’s assets were made up of residential construction loans.
                       Also, the bank held bank stock loans and holding company loans of
                       other banks in the Atlanta area that were tied to the housing market.
                       From a funding standpoint the bank relied heavily on federal funds
                       from other member banks. Accordingly, Silverton was especially
                       affected by the condition of the banks to which it was lending.

                       We believe that OCC should have given greater weight to these
                       market events in its decision to approve Silverton’s application to
                       become a nationally chartered bank. The OCC preconversion
                       examiners had questioned whether it was prudent to bring Silverton
                       into the national banking system when the real estate market was in


11
  Prior to its conversion to a national bank, Silverton had not been subject to CRA. Consequently, as a part
of the conversion process Silverton was also required to submit its proposal for complying with CRA to the
OCC headquarters consumer compliance division. In turn, OCC compliance staff communicated with the
bank regarding specific criteria and procedures for future CRA compliance.


                       Material Loss Review of Silverton Bank, N.A.                              Page 17
                       (OIG-10-033)
decline; however, in the end, the examiners did not object to the
approval of the charter.

Postconversion, There Was a Serious Lapse in OCC’s Supervisory
Coverage

OCC’s Birmingham field office, at the time a satellite office of the
Atlanta field office, conducted the preconversion examination of
Silverton. Shortly after Silverton’s conversion to a national bank on
August 17, 2007, OCC made the Birmingham satellite office an
independent field office. With this change, Silverton was no longer
within the boundaries covered by the Birmingham field office and the
supervisory responsibilities for Silverton were therefore reassigned to
the Atlanta field office.

As a result of competing priorities, resource constraints, and poor
communication between the preconversion and postconversion OCC
staff, there was a serious lapse in the supervision of Silverton.
Specifically, the Atlanta field office did not assign an EIC to Silverton
until 90 days after the conversion because of competing demands on
resources. Due to this gap in supervision, there was a protracted delay
in the formulation of a supervisory strategy for future Silverton
examinations. These 90 days were a crucial period in the supervision
of the bank, because as the housing market started to deteriorate, so
did Silverton. In January 2008, the EIC began reviewing problem
loans, assessing lending area risk, and developing the OCC supervisory
strategy. The supervisory strategy was approved in early April 2008.
The bank’s deterioration was reflected in OCC’s April 2008 targeted
examination of the bank’s asset quality, completed in September
2008, which downgraded Silverton’s CAMELS asset quality rating
from 2 to 3.

The Comptroller’s Handbook, Bank Supervision Process, states that
the examination frequencies prescribed by 12 USC 1820(d) apply to
banks that have been newly converted to a national charter. In this
regard, a converted national bank must receive a full-scope, on-site
examination within 12 months from the date of its last full-scope
examination by a federal banking agency (FDIC, Office of Thrift
Supervision, or the Federal Reserve Board).




Material Loss Review of Silverton Bank, N.A.                   Page 18
(OIG-10-033)
                      Our interviews with OCC examiners revealed that there was a lack of
                      communication between the EIC for the preconversion examination
                      and the EIC assigned after conversion. The EIC for the preconversion
                      examination had recommended that a full-scope examination be
                      started in the first quarter of 2008, but one was not begun until June
                      2008. Although the April 2008 targeted examination inquired into the
                      bank’s progress in addressing the MRAs from the preconversion
                      examination, OCC did not validate the actions taken until the June
                      2008 full-scope examination, which did not start until nearly a year
                      after the preconversion examination and over 17 months from the last
                      joint FRB Atlanta and State of Georgia full scope examination
                      completed in December 2006.

                      OCC’s 2008 full-scope examination found that none of the MRAs in
                      the preconversion ROE had been corrected. The examination identified
                      additional significant deficiencies in the bank’s operation which
                      resulted in a downgrade of the bank’s CAMELS composite rating to a
                      4. In a letter dated December 29, 2008, OCC informed Silverton that
                      it was deemed to be in troubled condition and that its supervision was
                      being transferred to OCC’s Special Supervision Division. 12

                      We believe in the case of Silverton, a significant-sized institution, the
                      gap in supervision, timing of the examinations, lack of validation of the
                      actions taken by the bank to address the preconversion MRAs, and
                      the ineffective transition and communication between the two EICs
                      culminated in what we consider to be a breakdown in the supervisory
                      process and an absence of adequate controls to prevent such an
                      occurrence. Some in OCC management, including the Southern
                      District deputy comptroller, agreed that it would have been desirable
                      to have the EIC who conducted the preconversion examination
                      continue to be assigned to Silverton despite the reorganization. Given
                      Silverton’s rapid deterioration, we believe that while it is unlikely that
                      a smoother transition between the two EICs (or retaining the same
                      EIC) would have prevented the bank’s failure, it might have reduced
                      the continued growth in CRE loans, and in turn, the loss to the Deposit
                      Insurance Fund.

12
   Under 12 U.S.C. § 1831i, once OCC designates a bank as in troubled condition, the bank is required to
notify OCC at least 90 days before the adding or replacing a member of the board of directors or employing
any senior executive officer. OCC may then issue a notice of disapproval or remain silent on the proposal.
The bank is also prohibited from entering into an agreement to make golden parachute payments to an
institution affiliated party.

                      Material Loss Review of Silverton Bank, N.A.                             Page 19
                      (OIG-10-033)
Transfer of Supervision to the Special Supervision Division Was
Orderly and the Division’s Use of Enforcement Action and PCA Was
Appropriate

At the conclusion of the full-scope examination, in December 2008,
OCC had significant regulatory concerns about Silverton. OCC found
that the bank’s condition was deficient and that board and
management oversight was inadequate for Silverton’s high and
increasing risk profile, resulting in losses and depletion of capital.
Following review by the Southern District Supervisory Review
Committee, OCC transferred supervision of Silverton to its Special
Supervision Division, which directed overall supervision of the bank
from December 29, 2008, until it was closed on May 1, 2009.

On February 26, 2009, Silverton’s board agreed to enter into a
consent order with OCC that contained 13 articles, 10 of which
required action by Silverton within specified time limits. The consent
order required the bank to address deficiencies in its capital plan,
concentrations of credit, criticized assets, loan portfolio management,
its strategic plan, its staffing plan, brokered deposits, liquidity, and
ALLL. The consent order also included a requirement that Silverton’s
board adopt a code of ethics to ensure that Silverton’s interest was to
be put ahead of individual board members’ interests or those of their
respective institutions. As part of a capital plan, Silverton was required
to achieve and maintain a total risk-based capital ratio of 11 percent
(the same total risk-based capital ratio required as a condition in the
approval of its national bank charter) and a leverage ratio of 8 percent
by June 30, 2009. These ratios are higher than those for the well-
capitalized standard. Silverton failed to meet the mandated capital
ratios.

Silverton’s call report for the period ended March 31, 2009, disclosed
that the bank’s tangible equity ratio had fallen to 1.19 percent. As a
result, on April 3, 2009, OCC notified Silverton that it was deemed
critically undercapitalized for PCA purposes and directed Silverton to
submit an acceptable capital restoration plan by April 16, 2009. This
plan was to address how Silverton would comply with the
requirements of the consent order. OCC determined that the plan,
received on April 18, 2009, was unacceptable because it did not
contain the required information.


Material Loss Review of Silverton Bank, N.A.                    Page 20
(OIG-10-033)
                       We concluded that the Special Supervision Division did its best to
                       address Silverton’s problems under the circumstances. However,
                       because conditions at Silverton had already deteriorated rapidly before
                       its supervision was transferred, the division could do little to
                       rehabilitate the bank. We also concluded that OCC took appropriate
                       enforcement action and properly implemented PCA in reclassifying the
                       bank’s capital level.

                       OCC’s Internal Lessons-Learned Review

                       OCC completed an internal lessons-learned review of Silverton’s failure
                       in August 2009. The objectives of the review were to evaluate the
                       accuracy and comprehensiveness of the preconversion examination
                       conclusions and assess the effectiveness of bank supervision after the
                       conversion of the institution to a national bank.

                       The internal review concluded that the decision to approve the
                       conversion was flawed in that identified weaknesses in credit and
                       credit risk management were not given sufficient weight; OCC’s
                       perceived capabilities of the bank’s management and management
                       commitments to correct the problems and conclusions reached by a
                       December 2006 FRB Atlanta/State of Georgia full-scope examination
                       of the bank were granted too much weight; and the bank’s
                       management was not compelled to demonstrate its ability and
                       commitment to make necessary improvements to existing operations.

                       The August 2009 report on the internal lessons-learned review made
                       the following observations concerning events leading to Silverton’s
                       failure.

                       Preconversion

                       •   When institutions depart from their original business strategy (e.g.,
                           from a bankers’ bank to a commercial bank), OCC needs to
                           exercise greater caution and be more forceful and persistent
                           regarding the necessity for better and/or different risk
                           management. 13


13
  With respect to this lesson-learn observation, OCC headquarters supervisory officials stated that while
they agree that converting banks planning to change their business strategy should receive close scrutiny,

                       Material Loss Review of Silverton Bank, N.A.                              Page 21
                       (OIG-10-033)
                      •   OCC needs to be careful to ensure, and in effect challenge, its
                          objectivity in the review process for approving prospective
                          charters, particularly when an entity is to become the largest in a
                          respective field office and significant within a district. 14 OCC
                          should consider the following questions:
                              a) Is the decision being overly influenced by maintaining
                                  staffing levels and/or providing opportunities for band VI
                                  positions?
                              b) What subtle pressures exist regarding OCC’s appetite for
                                  taking on new and/or larger entities?
                              c) Is there a perception that unless a bank’s condition, business
                                  plan or risk controls are so obvious a concern, that charter
                                  approval is more than likely?
                      •   When appropriate, as in this case, OCC needs to consult with its
                          credit policy/risk analysis division, subject matter experts, or
                          perhaps other business lines (e.g. large bank supervision) prior to
                          conversion, to simply request the views and opinions of other OCC
                          constituents. Such views/opinions may have also prompted
                          reassessment or expansion of the scope of the preconversion
                          examination so as to more fully evaluate unique risks, potential
                          outlier metrics, etc.
                      •   The need for due diligence and solicitation of opinion should have
                          become more obvious to the assistant deputy comptroller and
                          district deputy comptroller as the preconversion examination team
                          had already begun considering the issues raised and the size and
                          business focus of the institution, a higher level review should be
                          required. This may involve consultation with existing district
                          supervisory review committees.
                      •   Preconversion conditional approval letter - OCC must exercise
                          greater review and care in language that is stated in writing. The
                          preconversion letter in the case of Silverton was “too soft”. Words
                          such as “favorable” and phrases such as “We would like you to…”
                          were inconsistent with the substantive and detailed nature of the
                          MRAs expressed in the same letter.
                      •   Validation of correction of deficiencies should have postponed the
                          final chartering decision.

Silverton’s business strategy did not materially change. We agree with OCC that in Silverton’s case, its
business strategy did not materially change.
14
   From Silverton’s August 2007 conversion through March 2009, OCC collected fees from southern district
banks totaling $64.3 million. Silverton paid $739,400 during that period, which was 1.1 percent of the
total fees paid by southern district banks and the eighth-largest amount paid by a southern district bank.

                      Material Loss Review of Silverton Bank, N.A.                             Page 22
                      (OIG-10-033)
•   In addition to conditional approval letters, consider using such tools
    as “Operating Agreements” on institutions which pose greater
    and/or unique risks.
•   Consideration should be given to a quality assurance review of:
        a) preconversion examination procedures – the depth and
           scope should be commensurate with the unique risks of the
           institution.
        b) protocol/policy, when a conversion would result in the
           largest bank in a particular field office.
        c) resource allocation, both in terms of number of and
           experience of personnel must be better communicated and
           prioritized, in relation to the significance of size and inherent
           risk of the subject institution.
        d) Licensing’s review/role in chartering activity.
        e) Transition of supervision (pre and post conversion).

Postconversion

•   Effective communications are more critical:
        a) When transition of supervision occurs among EICs from
           different field offices
        b) When it involves the largest bank in the field office which
           has delegated supervisory responsibility.
•   Communication voids did, in fact, occur which ultimately led to the
    protracted delay in specific follow-up on previously identified
    MRAs.
•   Formality of transition of supervision from the pre to post
    conversion process needs greater discipline. It would have been
    advisable for the affected offices to coordinate and facilitate
    mandatory meetings to ensure effective and efficient “hand-off” of
    supervisory responsibility (i.e. this did not occur).
•   As credit related deterioration became increasingly more
    pronounced and resolution of previously identified deficiencies
    became more questionable, it is incumbent upon the supervisory
    office to reach-out and seek assistance in a more timely manner
    (e.g., subject matter experts, the Special Supervision Division, etc.)

Based on our review of the examination records and reports and our
interviews with OCC staff, we generally affirm OCC’s internal findings
and the need for corrective action. At the audit exit conference, OCC
officials stated that they considered the performance of second level

Material Loss Review of Silverton Bank, N.A.                      Page 23
(OIG-10-033)
           reviews of charter conversions prior to approval as a better approach
           than an after-the-fact quality assurance review. In this regard, the
           Senior Deputy Comptroller for Midsize and Community Bank
           Supervision stated that OCC districts have been instructed to have
           their respective District Supervisory Review Committees perform
           second-level reviews of charter conversions. This new process,
           however, has not yet been formalized in OCC policy and procedures.

Recommendations

           Our material loss review of Silverton is the eighth such review we
           have performed of a failed OCC-regulated financial institution during
           the current financial crisis. Appendix 6 lists the other seven material
           loss reviews and our associated recommendations. With one exception
           noted in the appendix, OCC management agreed with the prior
           recommendations and has taken action or is taking corrective actions
           to address them.

           As a result of our material loss review of Silverton, we recommend
           that the Comptroller of the Currency

           1. ensure that after a charter conversion an EIC is promptly assigned
              and supervisory coverage of the institution is continuous, to
              include the timely initiation (within no more than 12 months of the
              full-scope examination by the prior regulator) of the first full-scope
              examination after conversion.

               Management Response

               OCC acknowledges the need for timely assignment of an EIC to
               provide continuous supervision of a newly converted national bank.
               To ensure the responsible supervisory office timely appoints an EIC
               when a charter conversion is effective, OCC plans to revise the
               Comptroller’s Licensing Manual to include specific language calling
               attention to this requirement.
 
               OCC also noted that its Comptroller’s Licensing Manual outlines the
               key policies and application process for conversions to national
               bank charters, including a section on post-conversion supervisory
               activities, which provides the following guidance for the timing and
               scope of examinations of newly converted national banks:

           Material Loss Review of Silverton Bank, N.A.                    Page 24
           (OIG-10-033)
        “All converted insured national depository institutions,
        including converted insured trust banks, must receive full-
        scope examinations as prescribed by 12 USC 1820(d).
        Generally, an insured converted national bank must receive a
        full-scope examination within 12 months from the date of its
        last full-scope examination conducted by a federal banking
        agency or its last examination by its state regulator, if the
        examination met Federal Financial Institutions Examination
        Council (FFIEC) guidelines. The time period may be extended
        to 18 months from its last examination if the bank meets the
        standard statutory criteria for such an extension. The timing
        of the first full-scope examination may be influenced by
        whether a conversion examination was performed, if
        increased risks, concerns, or weaknesses are disclosed or if
        the converted bank is pursuing a nontraditional strategy.”

    OCC further stated that the final sentence of this section above is
    intended to address circumstances where examinations should be
    performed in less than the 12 or 18 month time period, but
    acknowledge that the sentence could be misinterpreted. OCC plans
    to clarify this requirement.

    OIG Comment

    OCC’s planned actions meet the intent of our recommendations.
    OCC will need to establish an estimated completion date for its
    planned actions to revise the Comptroller’s Licensing Manual, and
    record that date in JAMES.

2. ensure that appropriate actions are taken to amend or reinforce
   OCC guidance in response to the lessons learned review of the
   Silverton failure.

    Management Response

    OCC is in the process of shifting responsibility for performing
    lessons learned reviews of bank failures to its Ombudsman. The
    Ombudsman will also work with bank supervision management to
    ensure that appropriate actions are taken in response to findings of
    the lessons learned reviews.


Material Loss Review of Silverton Bank, N.A.                   Page 25
(OIG-10-033)
    OIG Comment

    OCC’s planned actions meet the intent of our recommendations.
    OCC will need to establish an estimated completion date for its
    planned actions, to include the actions to be taken in response to
    the Silverton lessons learned review, and record that date in
    JAMES.

In particular to the lessons learned review, we recommend that OCC

3. ensure that banks seeking conversion to a national charter address
   all significant deficiencies identified by OCC or prior regulators
   before approval; and

    Management Response

    OCC stated that the Comptroller’s Licensing Manual currently
    requires that licensing staff review the results of any conversion
    examination and comments from the supervisory office, discuss
    and resolve any matters identified in the examination report with
    the supervisory office, and send any response from the converting
    bank’s management to the supervisory office. OCC further stated
    in its response that as was the case with Silverton, there are often
    significant issues, identified by OCC or prior regulators, that a
    converting bank must address before its application can be
    approved. OCC plans to revise its Comptroller’s Licensing Manual
    to include a more thorough description of the procedures that
    should be followed to determine whether banks seeking conversion
    satisfactorily address significant deficiencies before charter
    conversion is approved.

    OIG Comment

    OCC’s planned actions meet the intent of our recommendations.
    OCC will need to establish an estimated completion date for its
    planned actions to modify the Conversions booklet, and record that
    date in JAMES.

4. formalize the process for second level reviews of charter
   conversions.


Material Loss Review of Silverton Bank, N.A.                   Page 26
(OIG-10-033)
    Management Response

    OCC plans to formalize the process of performing second level
    reviews of charter conversion proposals prior to recommending
    approval of the application. OCC Deputy Comptrollers will amend
    their respective Supervisory Review Committee charters to include
    this responsibility.

    OIG Comment

    OCC’s planned actions meet the intent of our recommendations.
    OCC will need to establish an estimated completion date for its
    planned actions to modify the Conversions booklet, and record that
    date in JAMES.

                               * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-5776 or Lisa E. DeAngelis, Audit Manager, at
(202) 927-5621. Major contributors to this report are listed in
appendix 8.



 /s/
Susan L. Barron
Audit Director




Material Loss Review of Silverton Bank, N.A.                 Page 27
(OIG-10-033)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Silverton Bank, N.A.
                        (Silverton), of Atlanta, Georgia, in response to our mandate under
                        section 38(k) of the Federal Deposit Insurance Act. 15 This section
                        provides that if the Deposit Insurance Fund incurs a material loss
                        with respect to an insured depository institution, the inspector
                        general for the appropriate federal banking agency is to prepare a
                        report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within 6
                        months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of Silverton based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of October 2, 2009, FDIC estimated that the loss to the Deposit
                        Insurance Fund from Silverton’s failure would be $608.3 million.

                        Our objectives were to determine the causes of Silverton’s failure;
                        assess the Office of the Comptroller of the Currency’s (OCC)
                        supervision of Silverton, including implementation of the PCA
                        provisions of section 38; and make recommendations for
                        preventing such a loss in the future. To accomplish our objectives,
                        we conducted fieldwork at OCC’s headquarters in Washington, DC,
                        its southern district office in Dallas, Texas, and its field office and
                        Silverton’s former headquarters in Atlanta, Georgia. We also
                        interviewed FDIC and FRB officials. We conducted our fieldwork
                        from July 2009 through November 2009.




15
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Silverton Bank, N.A.                    Page 28
                        (OIG-10-033)
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OCC’s supervision of Silverton, we
determined (1) when OCC first identified Silverton’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OCC took to get the bank to correct the
problems. We also assessed whether OCC (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

    •   We determined that the time period relating to OCC’s
        supervision of Silverton covered by our audit would be from
        May 2007 through Silverton’s failure on May 1, 2009. This
        period included a preconversion examination prior to
        Silverton’s conversion from a state-chartered institution to a
        national banking association, and two targeted examinations
        and one safety and soundness examination performed
        subsequent to becoming a national banking association.

    •   We reviewed OCC’s preconversion examination report and
        supporting documentation, and related correspondence. We
        performed this review to gain an understanding of any issues
        identified and the approach and methodology OCC used to
        assess the bank’s condition and subsequent approval of the
        bank for a national charter.

    •   We analyzed OCC’s postconversion reports of examination,
        supporting supervisory documentation, and related
        supervisory correspondence. We also assessed the
        regulatory action OCC used to compel bank management to
        address deficient conditions identified during examinations.
        We did not conduct an independent or separate detailed
        review of the external auditor’s work or associated
        workpapers other than those incidentally available through
        the supervisory files.

    •   We interviewed and discussed various aspects of Silverton’s
        supervision with OCC officials, examiners, and an attorney
        to obtain their perspective on the bank’s condition and the
        scope of the examinations.



Material Loss Review of Silverton Bank, N.A.                    Page 29
(OIG-10-033)
                        Appendix 1
                        Objectives, Scope, and Methodology




                            •   We interviewed FDIC officials responsible for monitoring
                                Silverton for federal deposit insurance purposes.

                            •   We interviewed Federal Reserve Bank of Atlanta (FRB
                                Atlanta) officials responsible for supervision of the bank
                                before its conversion to a national banking association in
                                2007. We also reviewed reports of examination prepared by
                                the FRB Atlanta for The Bankers Bank, the name Silverton
                                was known by prior to its conversion to a national charter,
                                to gain an understanding of its assessment of the bank’s
                                condition.

                            •   We interviewed officials from FDIC’s Division of Supervision
                                and Consumer Protection who were involved in the
                                supervision and closing of Silverton.

                            •   We assessed OCC’s actions based on its internal guidance
                                and requirements of the Federal Deposit Insurance Act. 16

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




16
     12 U.S.C. § 1811 et seq.

                        Material Loss Review of Silverton Bank, N.A.                   Page 30
                        (OIG-10-033)
Appendix 2
Background




History of Silverton Bank, N.A.

Georgia Bankers Bank was chartered as a commercial with the
State of Georgia in 1986. Its authority was limited by articles of
incorporation to providing banking services to depository financial
institutions, and its primary regulator was the Federal Reserve Bank
of Atlanta. In 1994, the bank changed its name to The Bankers
Bank. In August 2007, the bank converted from a state-chartered
to a nationally chartered bank, and the Office of the Comptroller of
the Currency (OCC) became its primary regulator. According to
OCC, the bank wanted to become a national chartered bank so that
it could be more aggressive with its growth and expand in more
areas.

Effective January 1, 2008, the bank changed its name to Silverton
Bank, N.A. (Silverton). Silverton was wholly owned by Silverton
Financial Services, Inc., a one-bank holding company. As of
December 2008, over 400 depository institutions and depository
institution holding companies owned the outstanding shares of
Silverton Financial Services, Inc. Silverton’s assets were
approximately $4.1 billion as of March 31, 2009.

Silverton’s main office was in Atlanta, Georgia. The bank had no
branches but had offices for loan production or business
development in Alabama, California, Colorado, Florida, Georgia,
Illinois, Maryland, Mississippi, North Carolina, Ohio, Tennessee,
Virginia, and Washington. Silverton did not accept deposits directly
from the general public. It provided correspondent banking services
to approximately 1,000 community banks, including payment and
check clearing services and other services related to lending, cash
management, investment, investment banking, and consulting.
Silverton’s lending services included loan participations, loans to
directors and executive officers of client/owner banks,
organizational lines of credit for de novo banks, direct loans to
financial institutions, and direct loans to individuals to purchase
holding company stock of financial institutions. Silverton offered
consulting services to approximately 1,500 community banks in 39
states.

Silverton wholly owned Specialty Finance Group, LLC, an operating
subsidiary that made direct commercial loans to the hospitality

Material Loss Review of Silverton Bank, N.A.                  Page 31
(OIG-10-033)
Appendix 2
Background




industry. Silverton owned 25 percent of Medici, LLC, a limited
liability company that holds bank premises, and 15 percent of
Salem Capital partners, LP, a partnership that operates a small
business investment company.

Appendix 4 contains a chronology of significant events regarding
Silverton.

Types of Examinations Conducted by OCC

OCC conducts various types of examinations, including full-scope
on-site examinations. A full-scope examination is a combined
examination of the institution’s safety and soundness, compliance
with regulations, and information technology (IT) systems.

The safety and soundness portion of the examination includes a
review and evaluation of the six CAMELS components: Capital
adequacy, Asset quality, Management administration, Earnings,
Liquidity, and Sensitivity to market risk. OCC assigns the bank a
rating for each component and a composite rating based on its
assessment of the overall condition of the bank and its level of
supervisory concern. The IT portion of the examination evaluates
the overall performance of IT within the institution and the
institution’s ability to identify, measure, monitor, and control
technology-related risks. The compliance portion of the
examination includes an assessment of how well the bank manages
compliance with various consumer protection laws and related
regulations, such as the Truth in Lending Act, the Truth in Savings
Act, and the Bank Secrecy Act. A targeted examination is any
examination that does not fulfill all the statutory requirements of a
full-scope examination.

OCC must schedule full-scope, on-site examinations of insured
banks once during either a 12-month or 18-month cycle. OCC is to
conduct examinations on a 12-month cycle until a bank’s
management has demonstrated its ability to operate the institution
in a safe and sound manner and satisfied all conditions imposed at
the time of approval of its charter. Once a bank meets these
criteria, OCC may use an 18-month examination cycle if the bank

    • has total assets of less than $500 million;


Material Loss Review of Silverton Bank, N.A.                  Page 32
(OIG-10-033)
Appendix 2
Background




    •   is well-capitalized;
    •   at its most recent examination received a:
          Management component rating of 1 or 2, and
          Composite rating of 1 or 2; and
    •   is not currently subject to a formal enforcement proceeding
        or order by the Federal Deposit Insurance Corporation , OCC,
        or the Federal Reserve Board; and
    •   has not undergone a change in control during the 12-month
        period since completion of the last full-scope, on-site
        examination.

Enforcement Actions Available to OCC

OCC examinations of banks result in the issuance of reports of
examinations (ROE) that identify any areas of concern. OCC uses
informal and formal enforcement actions to address violations of
laws and regulations and to address unsafe and unsound practices.

Informal Enforcement Actions

OCC may use informal enforcement actions when a bank’s overall
condition is sound, but it is necessary to obtain written
commitments from a bank’s board of directors or management to
ensure that it will correct problems and weaknesses. Informal
enforcement actions provide a bank with more explicit guidance
and direction than a ROE normally contains but are generally not
legally binding. Informal enforcement actions include commitment
letters and memoranda of understanding. Also included are safety
and soundness plans authorized by 12 C.F.R. Part 30. Informal
enforcement actions are not disclosed to the public.

Formal Enforcement Actions

Formal enforcement actions are authorized by statute, generally
more severe than informal actions, and disclosed to the public.
Formal enforcement actions are enforceable under the Federal
Deposit Insurance Act. They are appropriate when a bank has
significant problems, especially when there is a threat of harm to
the bank, depositors, or the public. OCC is to use formal
enforcement actions when informal actions are considered
inadequate, ineffective, or otherwise unlikely to influence bank


Material Loss Review of Silverton Bank, N.A.                  Page 33
(OIG-10-033)
                        Appendix 2
                        Background




                        management and board members to correct identified problems and
                        concerns in the bank’s operations. Because formal actions are
                        enforceable, OCC can assess civil money penalties against banks
                        and individuals for noncompliance with a formal agreement or final
                        order. OCC can also request a federal court to require the bank to
                        comply with an order. Formal enforcement actions include consent
                        orders, cease and desist orders, formal written agreements, and
                        prompt corrective action directives.

                        OCC Enforcement Guidelines

                        Factors used in determining whether to use informal action or
                        formal action include the following:

                        •   the overall condition of the bank;

                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;

                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and

                        •   the existence of previously identified but unaddressed problems
                            or weaknesses. 17




17
     OCC Policies and Procedures Manual 5310-3 (Rev).

                        Material Loss Review of Silverton Bank, N.A.                    Page 34
                        (OIG-10-033)
                    Appendix 3
                    Glossary


Brokered deposits                   Any deposit that is obtained, directly or indirectly,
                                    from a deposit broker. Under 12 U.S.C. 1831f and 12
                                    C.F.R. 337.6, the use of brokered deposits is limited
                                    to well-capitalized insured depository institutions and,
                                    with a waiver from the Federal Deposit Insurance
                                    Corporation, to adequately capitalized institutions.
                                    Undercapitalized institutions are not permitted to
                                    accept brokered deposits.

Call report                         A quarterly report of income and financial condition
                                    that banks file with their regulatory agency. The
                                    contents of a call report include consolidated detailed
                                    financial information on assets, liabilities, capital, and
                                    loans to executive officers, as well as income,
                                    expenses, and changes in capital accounts.


CAMELS                              An acronym for performance rating components for
                                    financial institutions: Capital Adequacy, Asset Quality,
                                    Management, Earnings, Liquidity, and Sensitivity to
                                    market risk. Numerical values range from 1 to 5 with
                                    1 being the best rating and 5 being the worst. The
                                    Office of the Comptroller of the Currency uses the
                                    CAMELS rating system to evaluate a bank’s overall
                                    condition and performance by assessing each of the
                                    six rating components and assigning numerical values.
                                    The Office of the Comptroller of the Currency then
                                    assigns each bank a composite rating based on its
                                    assessment of the overall condition and level of
                                    supervisory concern.

Capital Purchase Program            The Emergency Economic Stabilization Act of 2008,
                                    Pub. L. No. 110-342, 122 Stat. 3267, section 101(a)
                                    authorized Treasury to establish the Troubled Asset
                                    Relief Program to, among other things, purchase
                                    troubled assets from financial institutions. Under this
                                    authority, Treasury created a voluntary program--the
                                    Capital Purchase Program in which the United States
                                    government, through the Department of the Treasury,
                                    invests in preferred equity securities issued by
                                    qualified financial institutions.



                    Material Loss Review of Silverton Bank, N.A.                        Page 35
                    (OIG-10-033)
                     Appendix 3
                     Glossary


Capital restoration plan             Under the prompt corrective action requirements of
                                     the Federal Deposit Insurance Act, as amended, a
                                     capital restoration plan is to be submitted to the
                                     appropriate federal banking agency by any
                                     undercapitalized insured depository institution. A
                                     capital restoration plan specifies the steps the insured
                                     depository institution is to take to become adequately
                                     capitalized, the levels of capital to be attained during
                                     each year in which the plan is in effect, how the
                                     institution is to comply with the restrictions or
                                     requirements then in effect, the types and levels of
                                     activities in which the institution is to engage, and any
                                     other information that the federal banking agency may
                                     require.

Classified asset                     An asset rated as substandard, doubtful, or loss.
                                     Substandard assets are inadequately protected by the
                                     current worth and paying capacity of the obligor or of
                                     the collateral pledged, if any. A doubtful asset has all
                                     the weaknesses of a substandard asset with the
                                     added characteristic that the weaknesses make
                                     collection or liquidation in full questionable and
                                     improbable. A loss asset is considered uncollectible
                                     and of such little value that continuation as a bankable
                                     asset is not warranted.


Community Reinvestment Act           Enacted by Congress in 1977, the act encourages
                                     banks to help meet the credit needs of their
                                     communities for housing and other purposes,
                                     particularly in neighborhoods with low or moderate
                                     incomes, while maintaining safe and sound operations.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers.

Consent order                        The title given by the Office of the Comptroller of the
                                     Currency to a cease and desist order that is entered
                                     into and becomes final through the board of directors’
                                     execution, on behalf of the bank, of a stipulation and

                     Material Loss Review of Silverton Bank, N.A.                      Page 36
                     (OIG-10-033)
                     Appendix 3
                     Glossary


                                     consent document. Its provisions are set out in article-
                                     by-article form and prescribe restrictions and remedial
                                     measures necessary to correct deficiencies or
                                     violations in the bank in order to return it to a safe and
                                     sound condition.

Curtailment                          A required reduction (payment) of an outstanding
                                     principle by a borrower.

Full-scope examination               Examination activities performed during the
                                     supervisory cycle that (1) are sufficient in scope to
                                     assign or confirm an institution’s CAMELS composite
                                     and component ratings; (2) satisfy core assessment
                                     requirements; (3) result in conclusions about an
                                     institution’s risk profile; (4) include onsite supervisory
                                     activities; and (5) generally conclude with the
                                     issuance of a report of examination.

Interest reserve                     An account established by the lender to periodically
                                     advance funding to pay interest charges on the
                                     outstanding balance of a loan.

Loan participation                   The sharing of a loan by a group of banks that join
                                     together to make a loan too large for any one of the
                                     banks to handle. Loan participation is a convenient
                                     way for smaller banks to book loans that would
                                     otherwise exceed their legal lending limits (see loan-to-
                                     value for limits).

Loan-to-value                        A ratio for a single loan and property calculated by
                                     dividing the total loan amount at origination by the
                                     market value of the property securing the credit plus
                                     any readily marketable collateral or other acceptable
                                     collateral. In accordance with Interagency Guidelines
                                     for Real Estate Lending Policies, institutions’ internal
                                     loan-to-value limits should not exceed the legal lending
                                     limit: (1) 65 percent for raw land; (2) 75 percent for
                                     land development; (3) 80 percent for commercial,
                                     multifamily, and other nonresidential loans; and (4) 85
                                     percent for one-family to four-family residential loans
                                     The guidelines do not specify a limit for owner-
                                     occupied one-family to four-family properties and

                     Material Loss Review of Silverton Bank, N.A.                        Page 37
                     (OIG-10-033)
                    Appendix 3
                    Glossary


                                    home equity loans. However, when the loan-to-value
                                    ratio on such a loan equals or exceeds 90 percent at
                                    the time of origination, the guidelines state that the
                                    bank should require mortgage insurance or readily
                                    marketable collateral.

Matters requiring                   A bank practice noted during an examination of a
attention                           bank that deviates from sound governance, internal
                                    controls, and risk management principles. The
                                    matters, if not addressed, may adversely impact the
                                    bank’s earnings, capital, risk profile, or reputation, or
                                    may result in substantive noncompliance with laws
                                    and regulations, internal policies or processes, Office
                                    of the Comptroller of the Currency supervisory
                                    guidance, or conditions imposed in writing or other
                                    requests by a bank. Although matters requiring
                                    attention are not formal enforcement actions, the
                                    Office of the Comptroller of the Currency requires that
                                    banks address them. A bank’s failure to do so may
                                    result in a formal enforcement action.

Multi-variable stress testing       An integrated, enterprise wide stress testing program
                                    in which the impact of the various risks such as
                                    credit, market, and operational on applicable loans are
                                    assessed and used in strategic decision making
                                    processes.

Prompt corrective action            A framework of supervisory actions, set forth in
                                    12 U.S.C. §1831o, for insured depository institutions
                                    that are not adequately capitalized. It was intended to
                                    ensure that action is taken when an institution
                                    becomes financially troubled in order to prevent a
                                    failure or minimize resulting losses. These actions
                                    become increasingly severe as a bank falls into lower
                                    capital categories. The capital categories are well-
                                    capitalized, adequately capitalized, undercapitalized,
                                    significantly undercapitalized, and critically
                                    undercapitalized. The prompt corrective action
                                    minimum requirements are as follows:




                    Material Loss Review of Silverton Bank, N.A.                      Page 38
                    (OIG-10-033)
                     Appendix 3
                     Glossary


                                                              Tier 1/
                                        Total                 Risk-           Tier 1/
               Capital Category         Risk-Based            Based           Leverage
                                        10% or         and 6% or           and 5% or greater
               Well-capitalizeda
                                        greater              greater
               Adequately               8% or          and 4% or           and 4% or greater
               capitalized              greater              greater             (3% for 1-rated)
                                        Less           or    Less          or    Less than 4% (except
               Undercapitalized
                                        than 8%              than 4%             for 1-rated)
               Significantly            Less           or    Less          or    Less than 3%
               undercapitalized         than 6%              than 3%
                                        Has a ratio of tangible equity to total assets that is equal
               Critically
                                        to or less than 2 percent. Tangible equity is defined in
               undercapitalized
                                        12 C.F.R. § 565.2(f).
               a
                 To be well-capitalized, a bank also cannot be subject to a higher capital requirement
               imposed by OCC.

Risk-based capital                   The sum of Tier 1 plus Tier 2 capital.

Special Supervision Division         The Special Supervision Division of the
                                     Midsize/Community Bank Supervision Department
                                     supervises critical problem banks through rehabilitation
                                     or other resolution processes such as orderly failure
                                     management or the sale, merger, or liquidation of such
                                     institutions. It is located at the Office of the
                                     Comptroller of the Currency’s headquarters in
                                     Washington, D.C.

Subordinated debt                    Debt that is either unsecured or has a lower priority
                                     than that of another debt claim on the same asset or
                                     property, also called junior debt.

Tangible equity ratio                Tier 1 capital plus cumulative preferred stock and
                                     related surplus less intangibles except qualifying
                                     purchased mortgage servicing rights divided by total
                                     assets less intangibles except qualifying purchased
                                     mortgage servicing rights.

Transaction Account                  A component of the Federal Deposit Insurance
Guarantee Program                    Corporation’s Temporary Liquidity Guarantee Program.
                                     The Temporary Liquidity Guarantee Program was
                                     established in October 2008 as part of a coordinated
                                     effort by the Federal Deposit Insurance Corporation,
                                     the Department of the Treasury, and the Federal


                     Material Loss Review of Silverton Bank, N.A.                               Page 39
                     (OIG-10-033)
                   Appendix 3
                   Glossary


                                   Reserve to address unprecedented disruptions in credit
                                   markets and the resultant inability of financial
                                   institutions to fund themselves and make loans to
                                   creditworthy borrowers. The Temporary Liquidity
                                   Guarantee Program has two distinct components:
                                   (1) the Debt Guarantee Program and (2) the
                                   Transaction Account Guarantee Program. The Federal
                                   Deposit Insurance Corporation guarantees certain
                                   senior unsecured debt issued by participating entities
                                   under the Debt Guarantee Program and all funds held
                                   in qualifying noninterest-bearing transaction accounts
                                   at participating insured depositary institutions under
                                   the Transaction Account Guarantee Program.
                                   Originally scheduled to expire on December 31, 2009,
                                   the Transaction Account Guarantee Program was
                                   extended in August 2009 until June 30, 2010.
                                   Participating insured depositary institutions pay an
                                   assessment fee for the additional guarantee.

Tier 1 capital                     Common shareholder’s equity (common stock,
                                   surplus, and retained earnings), noncumulative
                                   perpetual preferred stock, and minority interests in the
                                   equity accounts of consolidated subsidiaries.

Tier 2 capital                     Consists of subordinated debt, intermediate-term
                                   preferred stock, cumulative and long-term preferred
                                   stock, and a portion of a bank’s allowance for loan
                                   and lease losses.

Troubled Asset Relief Program      A program established under the Emergency Economic
(TARP)                             Stabilization Act of 2008 with the specific goal of
                                   stabilizing the United States financial system and
                                   preventing a systemic collapse. The act gives the
                                   program the authority to purchase and make fund
                                   commitments to purchase troubled assets from any
                                   financial institution.




                   Material Loss Review of Silverton Bank, N.A.                      Page 40
                   (OIG-10-033)
                   Appendix 4
                   Chronology of Significant Events




The following chronology describes significant events in the history of Silverton Bank,
N.A. (Silverton), including examinations conducted and enforcement actions taken by
the Office of the Comptroller of the Currency (OCC).

2/3/1986           The bank is chartered as a commercial bank with the State of
                   Georgia. Its authority is limited by articles of incorporation to
                   providing banking services to depository financial institutions. The
                   bank’s original name is Georgia Bankers Bank.

5/24/1994          The bank changes its name to The Bankers Bank.

4/2/2007           OCC receives The Bankers Bank’s application to convert from a
                   state-chartered institution to a national banking association.

5/14/2007          OCC begins a preconversion examination, which results in CAMELS
                   composite and component ratings of 2/222222.

6/5/2007           In internal memorandum, examiners express concerns as reflected
                   in MRAs in credit risk management processes, strategic planning
                   and capital planning but conclude there is no ‘deal breaker.”

6/18/2007          OCC officials meet with Silverton management to discuss OCC
                   concerns. OCC perspective is management understood concerns
                   and was committed to correction.

6/26/2007          OCC officials hold second meeting with Silverton management, at
                   which the bank president states that OCC can be assured
                   remediation efforts will exceed OCC expectations.

7/20/2007          OCC notifies The Bankers Bank management in a letter that the
                   overall findings from the preconversion examination are favorable.
                   However, the letter discusses several significant supervisory issues
                   identified by OCC examiners, resulting in three matters requiring
                   attention (MRA) regarding credit risk management processes,
                   strategic planning, and capital planning. OCC asks that bank
                   management respond, in writing, outlining specific commitments to
                   address these MRAs. OCC informs bank management that it will
                   recommend that the bank’s application be approved with the




                   Material Loss Review of Silverton Bank, N.A.                   Page 41
                   (OIG-10-033)
                      Appendix 4
                      Chronology of Significant Events




                      requirement that total risk-based capital be maintained at not less
                      than 11 percent. 18

7/26/2007             The Bankers Bank management responds to OCC’s July 20, 2007,
                      letter, committing to address supervisory concerns and outlining
                      steps to address the three MRAs.

8/7/2007              OCC approves The Bankers Bank’s application to convert to a
                      national banking association. Conversion is conditioned on the
                      bank’s maintaining a total risk-based capital ratio of not less than
                      11 percent and taking the steps necessary to adopt the
                      commitments set forth in its July 26, 2007, letter.

8/17/2007             The bank’s conversion, under the name The Bankers Bank, N.A.,
                      from a state charter to a national bank charter is effective. Based
                      on the preconversion examination, examiners assign the bank
                      CAMELS composite and component ratings of 2/222222.

1/1/2008              The bank changes its name to Silverton Bank, N.A.

1/20/2008             The OCC examiner-in-charge reviews problem loans, assesses
                      lending area risk, and begins developing an OCC supervisory
                      strategy for Silverton.

4/24/2008             OCC’s April 2008 targeted examination results in CAMELS
                      composite and component ratings of 2/232222. OCC notifies
                      Silverton in a letter that the bank’s asset quality has significantly
                      deteriorated since the preconversion examination.

6/2/2008              OCC begins a full-scope safety and soundness examination using
                      March 31, 2008, financial information, which is later updated with
                      December 31, 2008, financial information. The examination results
                      in CAMELS composite and component ratings of 4/444442.

8/2008                OCC conducts a meeting with Silverton’s executive management
                      and credit management outlining asset quality concerns. In


18
  The 11 percent requirement is consistent with conditions established in a 2006 joint examination of
the bank by the Federal Reserve Bank of Atlanta and the Georgia Department of Banking and Finance.
Following that examination, The Banker’s Bank was required to maintain Tier 1 leverage of not less than
6 percent and a total risk-based capital ratio of not less than 11 percent.

                      Material Loss Review of Silverton Bank, N.A.                             Page 42
                      (OIG-10-033)
             Appendix 4
             Chronology of Significant Events




             response to OCC’s urging, Silverton’s board contracts for a
             comprehensive independent loan review.

9/9/2008     Silverton’s chief credit officer is terminated by bank management
             and a new one is appointed.

10/20/2008   OCC is advised by the contractor that the results from the
             contracted loan review that began in September 2008 are
             consistent with OCC examination findings.

10/24/2008   Silverton Financial Services, Inc., Silverton’s holding company, files
             an application for $77.3 million capital under the Troubled Asset
             Relief Program (TARP) Capital Purchase Program.

11/24/2008   OCC’s supervisory office orally advises Silverton’s management of
             its decision not to recommend approval of the bank’s TARP
             application.

12/10/2008   OCC’s District Supervisory Review Committee meets to finalize
             Silverton’s ratings for the June 2, 2008, examination. OCC’s
             Atlanta field office recommends CAMELS composite and
             component ratings of 3/343432 and the issuance of a formal
             agreement; while OCC’s Southern District Office recommends
             ratings of 4/444442 and a consent order. Silverton’s ratings are
             ultimately downgraded in accordance with the ratings
             recommended by OCC Southern District, and the proposed formal
             agreement is changed to a consent order.

12/29/2008   OCC informs Silverton that it is deemed to be in troubled condition
             and transfers supervision of the bank to OCC’s Special Supervision
             Division in Washington, DC.

12/31/2008   Silverton’s assets are approximately $3.2 billion. A decline in the
             bank’s asset quality causes its total risk-based capital to fall below
             11 percent, to 10.85 percent.

12/31/2008   OCC directs Silverton to reverse a $3.5 million dividend to
             Silverton Financial Services, Inc. Silverton subsequently reversed
             the dividend.




             Material Loss Review of Silverton Bank, N.A.                    Page 43
             (OIG-10-033)
                       Appendix 4
                       Chronology of Significant Events




1/2009                 OCC successfully requests the return of $3 million in bonuses paid
                       by the bank to Silverton’s senior executive officers and the holding
                       company.

2/2/2009               OCC begins a targeted examination of Silverton’s liquidity, and
                       asset quality with particular focus on loans secured by bank and/or
                       bank holding company stock, and trust preferred securities. The
                       examination is completed on March 24, 2009, and results in
                       CAMELS composite and component ratings of 5/555552.

2/26/2009              OCC issues a consent order with 13 articles, 10 of which require
                       action by Silverton within specified time limits. The consent order
                       primarily requires the board to address deficiencies identified in the
                       2008 examination with respect to management, capital, asset
                       quality, earnings, and liquidity. The consent order also changes
                       Silverton’s regulatory capital designation from well-capitalized to
                       adequately capitalized.

3/24/2009              OCC notifies Silverton of the results of the 2009 targeted review in
                       a letter. OCC concludes that Silverton’s overall condition has
                       deteriorated substantially since the 2008 examination and is now
                       critically deficient. The letter states that Silverton is in an extremely
                       unsafe or unsound condition, its overall risk profile is high and
                       increasing, and immediate outside financial or other assistance is
                       needed for Silverton to be viable.

4/2/2009               Silverton submits the mandated code of ethics in accordance with
                       OCC’s February 26, 2009, consent order. 19

4/3/2009               OCC informs Silverton that its tangible equity ratio of 1.19 percent
                       as of March 31, 2009, causes the bank to be deemed critically
                       undercapitalized for prompt corrective action purposes and directs
                       Silverton to submit an acceptable capital restoration plan by
                       April 12, 2009. The deadline for the plan is later extended to
                       April 16, 2009. The letter also informs Silverton of restrictions
                       applicable to institutions in the critically undercapitalized
                       category. 20

19
   OCC was evaluating Silverton’s submission and had not rendered an opinion prior to the closing of
Silverton.
20
   Pursuant to 12 U.S.C. § 1831o and 12 C.F.R. § 6.6 and 337.6, restrictions prescribed for critically
undercapitalized institutions include prohibition of the following without FDIC’s prior written approval:

                       Material Loss Review of Silverton Bank, N.A.                                 Page 44
                       (OIG-10-033)
                        Appendix 4
                        Chronology of Significant Events




4/7/2009                Silverton’s president and chief executive officer and its chief
                        operating officer resign. A board member is appointed interim
                        president and chief executive officer of Silverton and Silverton
                        Financial Services, Inc.

4/18/2009               OCC receives a capital plan from Silverton intended to serve as a
                        capital restoration plan for prompt corrective action purposes and
                        also designed to meet capital plan requirements set forth in the
                        February 26, 2009, consent order. This plan requires Silverton to
                        (1) eliminate shareholder dividend payments and suspend dividends
                        paid to the holding company; (2) decrease the balance sheet by
                        approximately $175 million to $3 billion by the end of 2009;
                        (3) eliminate the holding company by filing bankruptcy (4) raise
                        capital, most likely through a convertible preferred stock offering;
                        and (5) fund the capital infusion with an Federal Deposit Insurance
                        Corporation (FDIC)-backed open bank structure. 21 ,

4/23/2009               OCC informs Silverton by letter that the capital plan is
                        unacceptable for prompt corrective action purposes and does not
                        satisfy the consent order requirements. With respect to prompt
                        corrective action, OCC stated that the plan was based on events
                        that had not occurred, was primarily based on events not within
                        Silverton’s control, did not ensure that the events outside of
                        Silverton’s control would occur or be successful, was not based on
                        realistic assumptions, did not contain sufficient information and
                        analysis, and did not contain a guarantee and pledge of assets by
                        the holding company. With respect to the consent order
                        requirements, the plan did not contain the specificity, support, and
                        analysis required by the consent order.

entering into material transactions not in the usual course of business; extending credit for any highly
leveraged transactions as defined in 12 C.F.R. Part 325; amending the bank’s charter or bylaws; making
any material change in accounting methods; engaging in any covered transaction as defined in
12 U.S.C. § 371c(b); paying excessive compensation or bonuses; paying interest on new or renewed
liabilities at a rate that would increase the bank’s weighted average cost of funds to a level significantly
exceeding prevailing rates of interest; making principal or interest payments on subordinated debt;
accepting, renewing, or rolling over brokered deposits; and restricting the effective yield the bank offers
on deposits.
21
   Open back securities are part of a government assistance program to help prevent a bank from failing
and entails the bank taking the first $120 million of losses, 20 percent of the next $400 million of
losses, and 5 percent of all losses thereafter.


                        Material Loss Review of Silverton Bank, N.A.                                Page 45
                        (OIG-10-033)
           Appendix 4
           Chronology of Significant Events




5/1/2009   OCC closes Silverton and appoints FDIC as receiver. FDIC creates a
           bridge bank, Silverton Bridge Bank, N.A., to take over operations of
           the bank. At closing, Silverton has approximately $4.1 billion in
           assets and $3.3 billion in deposits. FDIC estimates that the cost to
           the Deposit Insurance Fund will be $1.3 billion.




           Material Loss Review of Silverton Bank, N.A.                 Page 46
           (OIG-10-033)
                    Appendix 5
                    OCC Silverton Bank, N.A. Examinations and Enforcement Actions




This appendix summarizes the Office of the Comptroller of the Currency’s (OCC)
preconversion, safety and soundness, and targeted examinations of Silverton
Bank, N.A. (Silverton), from May 2007 through February 2009, and provides
information on the significant results of those examinations. We list the matters
requiring attention contained in the reports of examination. Generally, matters
requiring attention represent the most significant items requiring corrective action.
The reports included no other recommendations or suggestions.

 Date                                     Significant safety and soundness matters requiring
 Started/Type    CAMELS        Assets     attention and recommendations cited in reports of              Enforcement
 of Exam         rating      (billions)   examination and workpapers                                     actions
 5/14/2007       2/222222        $2.1     Matters requiring attention                                    None
 Preconversion
 examination                              •   Develop a comprehensive plan to develop strong credit
                                              risk management processes. Due to the bank’s high
                                              level of commercial real estate (CRE) lending, this
                                              should include compliance with OCC Bulletin 2006-
                                              46, Interagency Guidance on CRE Concentration Risk
                                              Management. This should address at a minimum, the
                                              following issues:


                                              a.   The board should ensure that an appropriate level
                                                   of oversight is provided as part of a strong credit
                                                   risk management process.
                                              b.   Management of the loan portfolio should be
                                                   improved, including the policy, reports, market
                                                   analysis, and credit risk review function.


                                          •   Revisit the strategic planning process to ensure that
                                              growth and expansion plans are appropriate. The
                                              strategic plan should be re-evaluated in light of the
                                              bank’s increasing risk profile and risk management
                                              systems, which do not support these plans. Goals and
                                              objectives outlined in the strategic plan are too broad
                                              and not supported by more specific departmental level
                                              business plans.


                                          •   Develop a more comprehensive capital plan to meet
                                              the guidelines outlined in the bank’s capital and
                                              dividend policy, including a thorough analysis of the
                                              impact of growth plans and qualitative risk factors on
                                              capital adequacy.




                    Material Loss Review of Silverton Bank, N.A.                                                Page 47
                    (OIG-10-033)
                        Appendix 5
                        OCC Silverton Bank, N.A. Examinations and Enforcement Actions




      Date                                    Significant safety and soundness matters requiring
      Started/Type   CAMELS        Assets     attention and recommendations cited in reports of              Enforcement
      of Exam        rating      (billions)   examination and workpapers                                     actions
      4/24/2008      2/232222        $2.7     Matters requiring attention                                    None
      Targeted                                •   The letter issued to the bank did not discuss the status
      examination                                 of prior MRAs nor were new MRAs identified.
      of bank and
      holding
      company
      stock loans
      6/2/2008       4/444442        $3.1     Matters requiring attention                                    None (Note:
      Safety and                                                                                             Consent order
      soundness                               Reduce Problem Asset Levels (Repeat from preconversion         was
      full-scope                              examination):                                                  recommended
      examination                                                                                            by the Southern
                                              To reduce credit risk:                                         District
                                                                                                             Supervisory
                                              •   Assure that adequate staff with needed expertise is in     Review
                                                  place to manage problem loans.                             Committee in
                                              •   Reduce special mention and classified loan levels.         December 2008
                                              •   Reduce past due and nonperforming asset levels.            and the consent
                                              •   Reduce loan concentrations, especially in the riskier      order was
                                                  loan sectors.                                              issued February
                                              •   Remain proactive in identifying troubled credit            26, 2009 22
                                                  relationships.
                                              •   Continue to ensure that the allowance remains at an
                                                  adequate level.


                                              Capital Plan and Budgeting—Capital (Repeat from
                                              preconversion examination):
                                              )


                                              •    Given the recent and material increase in the bank’s


22
   The consent order required that Silverton comply with the following: (1) within 45 days, the board
shall forward to the director for his review a written strategic plan for the bank, covering at least a 3-
year period. (2) within 150 days, the bank shall achieve and maintain, at a minimum, the following
capital ratios: -Tier 1 capital at least equal to 11 percent of risk-weighted assets: and Tier 1 capital at
least equal to 8 percent of adjusted total assets. (3) the board shall ensure that the bank has capable
management in place on a full-time basis in all executive officer positions with qualifications and
experience commensurate with his or her duties necessary to carry out the board’s policies. (4) within
30 days, the board shall revise and maintain a comprehensive liquidity risk management program which
assesses, on an ongoing basis, the bank’s current and projected funding needs, and ensures that
sufficient funds or access to funds exist to meet those needs. (5) within 30 days, the board shall adopt
and the bank shall implement and thereafter ensure adherence to a written concentration management
program. (6) within 60 days, the board shall adopt and the bank shall implement and thereafter ensure
adherence to a written credit policy to improve the bank’s loan portfolio management. (7) and the board
shall require the bank to revise and maintain a program for the maintenance of an adequate ALLL.

                        Material Loss Review of Silverton Bank, N.A.                                                Page 48
                        (OIG-10-033)
                 Appendix 5
                 OCC Silverton Bank, N.A. Examinations and Enforcement Actions




Date                                   Significant safety and soundness matters requiring
Started/Type   CAMELS       Assets     attention and recommendations cited in reports of              Enforcement
of Exam        rating     (billions)   examination and workpapers                                     actions
                                           risk profile, management and the board should
                                           aggressively identify all options to increase capital,
                                           such as shrinking the bank, reducing operating
                                           expenses where possible, and selling assets. Given the
                                           seriousness of the bank’s asset quality problems and
                                           pessimistic projections for real estate market recovery,
                                           obtaining as much capital as possible is critical to the
                                           bank’s long-term viability.


                                       Concentration Management—Loans (Repeat from
                                       preconversion examination):


                                       •   Develop a concentration policy in keeping with OCC
                                           guidance.
                                       •   Establish appropriate concentration limits to reduce
                                           the risk from concentrations.


                                       Strategic Planning—Management (Repeat from
                                       preconversion examination):


                                       •   The board needs to revise the bank’s strategic plan,
                                           specifically as it relates to near-term and prospective
                                           growth and target markets. Uncontrolled growth and
                                           expansion into new markets over the last several
                                           years have strained capital and liquidity. The revised
                                           strategic plan should be developed in concert with the
                                           capital plan and budget.


                                       Review Staffing Needs—Staffing (Repeat from
                                       preconversion examination):


                                       •   It is critical that the board and management
                                           realistically assess their current and prospective
                                           staffing needs, accounting for the possibility that
                                           problem loan levels may increase in the near term, and
                                           fill those positions as soon as possible.




                 Material Loss Review of Silverton Bank, N.A.                                              Page 49
                 (OIG-10-033)
                     Appendix 5
                     OCC Silverton Bank, N.A. Examinations and Enforcement Actions




Date                                       Significant safety and soundness matters requiring
Started/Type      CAMELS        Assets     attention and recommendations cited in reports of        Enforcement
of Exam           rating      (billions)   examination and workpapers                               actions
2/2/2009          5/555552        $3.1     •   Matters requiring attention
Targeted                                       None, however, OCC was in the process of issuing a
examination                                    consent order.
of asset
quality, credit
risk
management,
allowance for
loan and lease
loss
adequacy,
and financial
performance
Source: OCC reports of examination and examination workpapers




                     Material Loss Review of Silverton Bank, N.A.                                        Page 50
                     (OIG-10-033)
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations

We have completed seven mandated material loss reviews of failed banks since
November 2008. This appendix provides our recommendations to the Office of the
Comptroller of the Currency (OCC) resulting from these reviews. With one exception
as footnoted in this appendix, OCC management concurred with the recommendations
and has taken or planned corrective actions that are responsive to the
recommendations. In certain instances, the recommendations address matters that
require ongoing OCC management and examiner attention.

 Report Title                                         Recommendations to the Comptroller
 Safety and Soundness: Material Loss Review of        Re-emphasize to examiners that examiners must
 ANB Financial, National Association, OIG-09-013      closely investigate an institution’s circumstances
 (Nov. 25, 2008)                                      and alter its supervisory plan if certain conditions
                                                      exist as specified in OCC’s Examiner’s Guide to
 OCC closed ANB Financial and appointed the           Problem Bank Identification, Rehabilitation, and
 Federal Deposit Insurance Corporation (FDIC) as      Resolution.
 receiver on May 9, 2008. At that time, FDIC
 estimated a loss to the Deposit Insurance Fund       Re-emphasize to examiners that formal action is
 of $214 million.                                     presumed warranted when certain circumstances
                                                      specified in OCC’s Enforcement Action Policy
                                                      (PPM 5310-3) exist. Examiners should also be
                                                      directed to document in the examination files the
                                                      reasons for not taking formal enforcement action
                                                      if those circumstances do exist.

                                                      Reassess guidance and examination procedures
                                                      in the Comptroller’s Handbook related to bank
                                                      use of wholesale funding with focus on heavy
                                                      reliance on brokered deposits and other nonretail
                                                      deposit funding sources for growth.

                                                      Establish in policy a “lessons-learned” process to
                                                      assess the causes of bank failures and the
                                                      supervision exercised over the institution and to
                                                      take appropriate action to address any
                                                      significant weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of        Re-emphasize to examiners the need to ensure
 First National Bank of Nevada and First Heritage     that banks take swift corrective actions in
 Bank, National Association, OIG-09-033               response to examination findings.
 (Feb. 27, 2009)
                                                      Re-emphasize to examiners OCC’s policy on the
 OCC closed First National Bank of Nevada and         preparation of supervision workpapers (i.e,
 First Heritage Bank and appointed FDIC as            workpapers are to be clear, concise, and readily
 receiver on July 25, 2008. As of December 31,        understood by other examiners and reviewers).
 2008, FDIC estimated losses to the Deposit
 Insurance Fund of $706 million for First National
 Bank of Nevada and $33 million for First
 Heritage Bank.




                      Material Loss Review of Silverton Bank, N.A.                                  Page 51
                      (OIG-10-033)
                    Appendix 6
                    Prior OIG Material Loss Review Recommendations

Safety and Soundness: Material Loss Review of       Conduct a review of investments by national
the National Bank of Commerce, OIG-09-              banks for any potential high-risk concentrations
042 (Aug. 6, 2009)                                  and take appropriate supervisory action.

OCC closed National Bank of Commerce and            Reassess examination guidance regarding
appointed FDIC as receiver on January 16,           investment securities, including government-
2009. As of June 30, 2009, FDIC estimated a         sponsored enterprise securities.
loss to the Deposit Insurance Fund of $92.5
million from this failure.
Safety and Soundness: Material Loss Review of       Caution examiners and their supervisors that
Ocala National Bank, OIG-09-043 (Aug. 26,           when a bank’s condition has deteriorated, it is
2009)                                               incumbent on examiners to properly support and
                                                    document in examination work papers the
OCC closed Ocala National Bank and appointed        CAMELS component and composite ratings
FDIC as receiver on January 30, 2009. As of         assigned, including those that may not have
August 7, 2009, FDIC estimated a loss to the        changed from prior examinations, as well as
Deposit Insurance Fund of $99.6 million.            support a decision not to take an enforcement
                                                    action.

                                                    Remind examiners that it is prudent to expand
                                                    examination procedures for troubled or high-risk
                                                    banks to review the appropriateness of (a)
                                                    dividends and (b) payments to related
                                                    organizations, particularly when the dividends or
                                                    payments may benefit bank management and
                                                    board members. In this regard, OCC should
                                                    reassess, and revise as appropriate, its
                                                    examination guidance for when expanded
                                                    reviews of dividends and related organizations
                                                    should be performed.
Safety and Soundness: Material Loss Review of       Emphasize to examiners that matters requiring
TeamBank, National Association, OIG-10-01           attention are to be issued in reports of
(Oct. 7, 2009)                                      examination in accordance with the criteria
                                                    regarding deviations from sound management
OCC closed TeamBank National Association and        and noncompliance with laws or policies listed
appointed FDIC as receiver on March 20, 2009.       in the Comptroller’s Handbook.
As of September 18, 2009, FDIC estimated a
loss to the Deposit Insurance Fund of $98.4          Emphasize to examiners the need to
million.
                                                     a. adequately assess the responsibilities of a
                                                        controlling official (chief executive
                                                        officer/president, for example) managing the
                                                        bank to ensure that the official’s duties are
                                                        commensurate with the risk profile and
                                                        growth strategy of the institution;
                                                     b. review incentive compensation and bonus
                                                        plans for executives and loan officers; and
                                                     c. ensure that banks conduct transactional and
                                                        portfolio stress testing when appropriate.

Safety and Soundness: Material Loss Review of        Review OCC processes to ensure that more


                    Material Loss Review of Silverton Bank, N.A.                                Page 52
                    (OIG-10-033)
                         Appendix 6
                         Prior OIG Material Loss Review Recommendations

     Omni, National Bank, OIG-10-017 (Dec. 9,             timely enforcement action is taken once the
     2009)                                                need for such action is identified. 23

     OCC closed Omni, National Bank and appointed         Impress upon examiner staff the importance of
     FDIC as receiver on March 27, 2009. As of            completing all activities in annual supervisory
     October 31, 2009, FDIC estimated a loss to the       cycles, including quarterly monitoring. In this
     Deposit Insurance Fund of $288.2 million.            regard, supervisors should ensure that quarterly
                                                          monitoring activities are scheduled and carried
                                                          out.

                                                          Implement a policy for EIC rotation for midsize
                                                          and community.




23
  OCC did not agree with this recommendation. In its response to our report, OCC asserted that current
policies are sufficient to ensure that timely enforcement action is taken. We accepted its position with
respect to its current processes and consider the recommendation closed.

                         Material Loss Review of Silverton Bank, N.A.                                 Page 53
                         (OIG-10-033)
Appendix 7
Management’s Response




Material Loss Review of Silverton Bank, N.A.   Page 54
(OIG-10-033)
Appendix 7
Management’s Response




Material Loss Review of Silverton Bank, N.A.   Page 55
(OIG-10-033)
Appendix 7
Management’s Response




Material Loss Review of Silverton Bank, N.A.   Page 56
(OIG-10-033)
Appendix 8
Major Contributors to This Report




Susan L. Barron, Director, Banking Audits
Lisa A. DeAngelis, Audit Manager
A. Michelle Littlejohn, Auditor in Charge
Fawntrella L. Thompson, Auditor
Michael R. Shiely, Auditor
Michael J. Maloney, Referencer
Daniel J. Domke, Referencer




Material Loss Review of Silverton Bank, N.A.   Page 57
(OIG-10-033)
Appendix 9
Report Distribution




Department of the Treasury

        Deputy Secretary
        Office of Strategic Planning and Performance Management
        Office of Accounting and Internal Control

Office of the Comptroller of the Currency

        Comptroller of the Currency
        Liaison Officer

Office of Management and Budget

        OIG Budget Examiner

Federal Deposit Insurance Corporation

        Chairman
        Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

        Chairman and Ranking Member
        Committee on Financial Services

Government Accountability Office

        Acting Comptroller General of the United States




Material Loss Review of Silverton Bank, N.A.               Page 58
(OIG-10-033)
